No..
IN THE
SUPREME COURT OF THE UNTIED STATES

PETITION FOR WRIT OF CERTIORARI - SUPPLEMENTAL APPENDIX
PROOF OF SERVICE - AMENDED

BOBBY KNIGHT, a/k/a Bobby Knight, III,
Petitioner,
v.
JEH CHARLES JOHNSON, DHS SEC. etal.
Respondents.

I, Bobby Knight, do swear or declare that on this date, January 28, 2020, as required
by the Supreme Court R.29 I have served the enclosed SUPPLEMENTAL
APPENDIX TO: PETITION FOR WRIT OF CERTIORARI (March 20*h, 2020) AND
(with the Petition For Writ Of Certiorari; 3 ea. Booklets which were served January
28, 2020 original is attached) on each party to the above proceeding or that party’s
counsel, and every other person to be served, BOTH by depositing an envelope in the
United States mail properly addressed to each of them with first class postage
prepaid, or by delivery to a 3rd party commercial carrier for delivery within 3 days.
The list of names and addresses of those served are as follows:
Solicitor General of the United States,
Room 5616,
Department of Justice,
950 Pennsylvania Ave., N. W.,
Washington, DC 20530-0001
(cont’d next page)

r

b

-

PETITION FOR WRIT OF CERTIORARI - SUPPLEMENTAL APPENDIX
PROOF OF SERVICE - AMENDED
Hon. USA Beth Drake
(Attn- Mr. Ragsdale)
United States Attorney Dist of S.C.
1441 Main Street, Suite 500
Columbia, S.C. 29201
Blincow-Griffin
Atty for Dfts- Chenga & J.Thorpe
126 Meeting Street
Charleston, S.C. 29401
Anderson Reynolds & Stephens
Atty for STATES' Defendants
% Lisa A. Reynolds & Curt Martin
PO Box 87
Charleston, S.C. 29402
Pedersen & Scott PC
Atty Atlantic Elec & Richardsons’
775 St. Andrews Blvd.
Charleston, S.C. 29407

Executed on September 1, 2019 November 12, 2019 January 28, 2020
March 20, 2020.

Bobby Knight, pro se
3940 Hottinger Ave.
North Charleston, S.C. 29405
(843) 735-0814

No..
IN THE
SUPREME COURT OF THE UNTIED STATES

PETITION FOR WRIT OF CERTIORARI
PROOF OF SERVICE

BOBBY KNIGHT, a/k/a Bobby Knight, III,
Petitioner,
v.
JEH CHARLES JOHNSON, DHS SEC. etal.,
Respondents.

I, Bobby Knight, do swear or declare that on this date, January 28, 2020, as required
by the Supreme Court R.29 I have served the enclosed PETITION FOR WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and
every other person to be served, by depositing an envelope in the United States mail
properly addressed to each of them with first class postage prepaid, or by delivery to
a 3rd party commercial carrier for delivery within 3 days.
The list of names and addresses of those served are as follows:
Solicitor General of the United States,
Room 5616,
Department of Justice,
950 Pennsylvania Ave., N. W.,
Washington, DC 20530-0001
(cont’d next page)

Hon. USA Beth Drake
(Attn^ Mr. Ragsdale)
United States Attorney Dist of S.C.
1441 Main Street, Suite 500
Columbia, S.C. 29201
Blincow - Griffin
Atty for Dfts: Chenga & J.Thorpe
126 Meeting Street
Charleston, S.C. 29401
Anderson Reynolds & Stephens
Atty for STATES' Defendants
% Lisa A. Reynolds & Curt Martin
PO Box 87
Charleston, S.C. 29402
Pedersen & Scott PC
Atty Atlantic Elec & Richardsons’
775 St. Andrews Blvd.
Charleston, S.C. 29407

Executed on Soptombor 1, 2019 November-12-, -2Q-19 January 28, 2020

Bobby Knight, pro se
3940 Hottinger Ave.
North Charleston, S.C. 29405
(843) 735-0814

I

